IMPROVING THE FEDROOMS PROGRAM
     BASED ON BENCHMARKING
   FEDERAL ACQUISITION SERVICE
 REPORT NUMBER A080074/Q/A/P08009
       SEPTEMBER 29, 2008
                      IMPROVING THE FEDROOMS PROGRAM
                           BASED ON BENCHMARKING
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A080074/Q/A/P08009

                                TABLE OF CONTENTS
                                                                                Page
REPORT LETTER                                                                     1

EXECUTIVE SUMMARY                                                                 2

INTRODUCTION                                                                      4

      Background                                                                  4

      Objective, Scope and Methodology                                            5

RESULTS OF REVIEW                                                                 7

      Brief                                                                       7

      Findings and Recommendations                                                7

       Finding 1 – Revise Policy Language to Encourage Traveler Participation     7

       Finding 2 – Communicate Policy and Contact Non-Compliant Travelers        11

       Finding 3 – Implement System Enhancements                                 13

       Finding 4 – Consider Program Funding Alternatives                         16

       Finding 5 – Reevaluate Contract Provisions                                19

       Conclusion                                                                21

      Management Controls                                                        21

Other Reportable Matter                                                          22

Management Comments                                                              23

Office of Inspector General Response                                             23

APPENDICES

      Management Response                                                       A-1

      Report Distribution                                                       B-1
Date:        September 29, 2008
Reply to
Attn of:     Audit Manager, Acquisition Programs Audit Office (JA-A)

Subject:     FINAL REPORT:
             Improving the FedRooms Program Based on Benchmarking,
             Federal Acquisition Service
             Report Number A080074/Q/A/P08009

To:          Tyree Varnado
             Acting Commissioner, Federal Acquisition Service (Q)

This report presents the results of the General Services Administration (GSA) Office of
Inspector General’s (OIG’s) benchmarking study of the FedRooms Program
(FedRooms). The study was requested by the Federal Acquisition Service (FAS) as a
follow-up to the OIG’s review of the non-mandated lodging program (Report Number
A070167/Q/9/P08002 issued on February 4, 2008).

The benchmarking study determined that in Fiscal Year (FY) 2007, FedRooms usage
represented less than one percent of total Government lodging costs. As a result of the
low FedRooms usage, the Government has very little leverage in the marketplace to
improve hotel rates and amenities. Our benchmarking partners advised us that to
improve usage of the program and thus increase the Government’s leverage, several
steps must be taken: (1) implement policy language that will strongly influence
Government travelers to use the lodging program; (2) effectively communicate with
travelers regarding the policy, the benefits of the lodging program, and when non-use of
the program is detected; (3) enhance the FedRooms.com on-line booking tool and
travel authorization process; (4) consider program funding alternatives; and (5) carefully
define in the contract for day-to-day operations of the program how crucial program
functions are to be performed (such as soliciting offers, determining which hotels to
include in the program, presenting hotels on the program website, and charging
program hotels) and who has ownership rights to the program website.

FAS’ response to the draft report, dated September 17, 2008, is included as Appendix A
of the report.




PERLA CORPUS
Audit Manager
Acquisition Programs Audit Office (JA-A)




                                            1 

 
                      IMPROVING THE FEDROOMS PROGRAM
                           BASED ON BENCHMARKING
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A080074/Q/A/P08009

                               EXECUTIVE SUMMARY

PURPOSE

The objective of this review was to determine how FAS can improve FedRooms to gain
wider participation by hotels and travelers based on best practices used by large
corporations and states.

BACKGROUND

FedRooms promotes the following benefits with a hotel room reservation: rates at-or-
below Government per diems; no-fee reservation cancellation privileges, no added
costs (health club fee, resort fee, etc.), no early check-out fees, and last room
availability of program rates at many hotels.

On September 21, 2004, Carlson Wagonlit Travel (CWT) was awarded the contract to
manage FedRooms. Program costs are approximately $650,000 annually for CWT
(plus marketing expenses) and $853,000 per year for GSA. To fund FedRooms,
program hotels are required to remit a 2.75 percent fee to CWT, whereby CWT retains
2.0 percent and sends 0.75 percent to GSA.

As of July 24, 2008, there were 6,578 hotels participating in FedRooms. SmartPay
charges for official civilian and military hotel rooms were $2.5 billion for FY 2007.
However, FedRooms, now in its fourth year, had usage of less than one percent of that
amount.

RESULTS IN BRIEF

The review determined that in FY 2007, FedRooms usage represented less than one
percent of total Government lodging costs, and as a result, the Government has very
little leverage in the marketplace to further the goals of the program.

Benchmarking partners advised that in order to improve hotel rates and amenities, it
was important to limit the number of program hotels and move volume to them.
According to our partners, implementing a successful lodging program positioned them
with leverage or buying power to negotiate with any hotels for possibly even better rates
and amenities. Further, our benchmarking partners advised us of several ways FAS
program officials could increase FedRooms usage, and our recommendations address
these areas.


                                           2

 
RECOMMENDATIONS

We recommend the Acting Commissioner of the Federal Acquisition Service:

1. Work in partnership with the GSA Office of General Counsel and the GSA Office of
   Governmentwide Policy to strengthen/improve the language in the Federal Travel
   Regulation (FTR) for FedRooms, including requiring travelers to cite one of the four
   exceptions listed in the FTR “for travel within the contiguous United States” if they do
   not use a FedRooms hotel and obtain supervisory approval for the non-use.

2. Direct GSA program officials to work with CWT to determine the most effective
   method of marketing FedRooms and following up with non-compliant travelers.

3. As a means of increasing traveler use of FedRooms and satisfaction with their on-
   line booking experience, direct FAS to work with (a) CWT to improve its website,
   FedRooms.com and (b) the E-Gov Travel Service vendors to automatically default
   and route to the preferred hotel content (FedRooms) within the on-line booking tool
   when an overnight stay is required.

4. Perform cost studies of funding alternatives to the 2.75 percent fee assessed to
   program hotels as a means of gaining greater hotel participation and traveler usage
   of FedRooms in order that program revenues cover program costs.

5. Carefully define in the follow-on solicitation for the day-to-day operations of
   FedRooms provisions such as: (a) how the contractor is to determine the hotels to
   solicit offers from, select and remove program hotels, and charge program hotels,
   and (b) who owns the rights to the website used to list hotel information and make
   reservations, so flexibility in vendor selection for follow-on contracts to manage
   FedRooms is preserved.




                                            3

 
                                               IMPROVING THE FEDROOMS PROGRAM
                                                    BASED ON BENCHMARKING
                                                  FEDERAL ACQUISITION SERVICE
                                                REPORT NUMBER A080074/Q/A/P08009

                                                               INTRODUCTION

Background

FAS requested this benchmarking study as a follow-up to the OIG’s review of
FedRooms, which is a non-mandated program (Report Number A070167/Q/9/P08002
issued on February 4, 2008). The objectives of the first review were to determine
whether the lodging program: (1) provided Government travelers ease of reservation
access, best value, reservation flexibility, and FEMA compliant hotels; (2a) was used by
Government travelers; and (2b) could be enhanced. The review determined that
FedRooms offered easy reservation access, rates at or below per diem, reservation
flexibility, and FEMA compliance. However, we determined that usage of FedRooms
hotels was low and recommended that the Commissioner of FAS develop a Business
Plan for FedRooms. 1

FedRooms promotes the following benefits with a room reservation:

       •      Rates at-or-below Government per diem allowances;
       •      Reservation cancellation without penalty until 4:00 pm or later on the day of
              arrival;
       •      No added costs (i.e., maid fee, health club fee, resort fee);
       •      No early check-out fees; and
       •      Last room availability of program rates at two-thirds of the FedRooms hotels.

On September 21, 2004, CWT was awarded the contract to manage FedRooms.
Program costs were estimated at $650,000 annually for CWT (plus marketing
expenses) and approximately $853,000 per year for GSA. To fund the program, hotels
remit 2.75 percent of room revenues to CWT. CWT retains 2.0 percent and sends 0.75
percent to GSA.



                                                            
1
 Specifically, the OIG recommended that FAS develop a business plan that includes addressing the
obstacles that may affect the future viability of the program. These obstacles include providing incentives
to Government travelers and differentiating the FedRooms rate from the hotel’s Government rate. In
addition, the report said the plan should take into consideration the impact of the Government’s per diem
rates for lodging on FedRooms. The Management Action Plan stated that the Business Plan would be
completed by January 15, 2009.
 
                                                                    4

 
As of July 24, 2008, a total of 6,578 hotels had been accepted 2 into FedRooms, as
shown in the chart below.

                                             Chart I - Program Hotels as of July 24, 2008




Source: CWT’s FedRooms Program Manager

According to data from GSA’s SmartPay travel card program, expenditures for official
civilian and military hotel rooms were $2.5 billion for FY 2007. FedRooms, now in its
fourth year, had usage of less than one percent of total SmartPay lodging expenditures
in FY 2007. 3

OBJECTIVE, SCOPE AND METHODOLOGY

The objective for our follow-up review was to determine how FAS can improve
FedRooms to gain wider participation by hotels and travelers based on best practices
used by large corporations and states. The basis of our analyses was domestic
transient or short-term stay hotels, which represented 4,782 (or 73 percent) of the total
properties participating in FedRooms.

To accomplish our objective, we performed the following steps:

•      Interviewed FAS and CWT officials, analyzed CWT data related to FedRooms, and
       tested CWT’s FedRooms website (FedRooms.com) 4 for strengths and weaknesses.




                                                            
2
  Accepted status indicates that CWT has approved a hotel’s rate proposal, confirmed that the hotel’s
FedRooms rates were posted, and verified the Government’s safety requirements.
 
3
  The universe could be as high as $5 billion for total Government lodging expenses. According to a FAS
official, total travel expenditures for the Government (civilian and military) has been difficult to determine
due to significant numbers of Government travelers failing to use their SmartPay cards for official travel.
 
4
  FedRooms.com is a website developed and owned by CWT. Under the present contract, FAS only owns
the FedRooms brand name.
 
                                                                  5

                                                                   
•   Held discussions and analyzed relevant documentation with the following hoteliers:
    Choice Hotels International; Intercontinental Hotels Group; Hilton Hotels Corporation
    and Marriott International, Inc.

    Our selection of the first three hotels was based on their significant participation in
    FedRooms. However, the fourth hotel chain, known as one of the leaders in
    Government hotel bookings, has no participation in FedRooms at the national level
    and limited participation by franchisees.

•   Held discussions and analyzed relevant documentation with the following travel
    management companies: Uversa International, Inc.; SatoTravel; and National
    Business Travel Association.

    We selected the first company as a result of a FAS referral, the second company
    was ideal because they operate other lodging programs for the benefit of
    corporations and Government agencies, and the third was chosen because they
    have many corporate members and unique insights into the travel industry.

•   Held discussions and analyzed relevant documentation with the following
    corporations: International Business Machines Corporation, Lockheed-Martin
    Corporation, General Electric Company, Deloitte-Touch Tohmatsu, Oracle, Perot
    Systems, Federal Express Corporation, Hewlett Packard Company, and American
    Airlines.

    Company selection was based on FAS referrals, as well as the following criteria:
    Fortune 500 companies in various industries (high-tech, aerospace defense,
    financial, delivery-freight, etc.) with lodging programs, significant travel budgets, and
    a large number of employees who travel within the continental United States.

•   Held discussions and analyzed relevant documentation with the following states:
    Texas, Oregon, Utah, and Colorado.

    We selected these states because FAS officials or other benchmarking partners
    advised us that they had well-established lodging programs.

We conducted this audit in accordance with generally accepted Government auditing
standards.




                                              6

                                               
                                    RESULTS OF REVIEW

Brief

In FY 2007, FedRooms usage represented less than one percent of total Government
lodging costs. As a result of the low FedRooms usage, the Government has very little
leverage in the marketplace to further the goals of the program.

Benchmarking partners advised that the key to improving hotel rates and amenities in a
lodging program was to limit the number of program hotels and to achieve actual stays
by employees at these hotels. According to our partners, implementing a lodging
program certainly positioned them with leverage to negotiate with hotels for possibly
even better rates and amenities.

In order to increase FedRooms usage among Government travelers and thereby
strengthen the Government’s leverage in the marketplace, our benchmark partners
advised that several steps must be taken:

   •    Implement policy language that will strongly influence Government travelers to
        use the lodging program;
   •    Effectively communicate with travelers regarding the policy, the benefits of the
        lodging program, and when non-use of the program is detected;
   •    Enhance the FedRooms.com on-line booking tool and travel authorization
        process;
   •    Consider program funding alternatives; and
   •    Carefully define in the contract for day-to-day operations of the program how
        crucial program functions are to be performed (such as soliciting offers,
        determining which hotels to include in the program, presenting hotels on the
        program website, and charging program hotels) and retain ownership rights to
        the program website.

Finding 1 – Revise Policy Language to Encourage Traveler Participation

Although the FTR does not mandate use of the program, the language should be
strengthened to more strongly encourage participation in FedRooms. The current FTR
language does not explain the importance and benefits of FedRooms, nor does it
require travelers to cite an exception for not using the program and obtain supervisory
approval for the exception.       As a result, the policy has minimal influence on
Government travelers, with usage of FedRooms representing less than one percent of
total Government lodging costs. Because of the lack of volume at program hotels,
program rates are typically the same as the hotels’ normal Government rates.

As shown in the following charts, program usage has slowly increased, with the
dramatic rise for the first quarter of FY 2008 caused by the late reporting by one hotel

                                            7

                                             
chain. However, program usage still represented less than two percent of the
Government’s estimated total lodging costs in the first three quarters of FY 2008.

                                Chart II - Hotel Revenues from April 2005 to June 2008




Source: CWT’s Reporting and Remittance Coordinator



                                   Chart III - Room Nights from April 2005 to June 2008




    Source: CWT’s Reporting and Remittance Coordinator

Legislation to remove the prohibition against mandating the use of the lodging program
is in limbo. 5 However, FTR 301-50.8 currently states that “first consideration” must be
given to commercial lodging facilities under the lodging program when Government
travelers make their hotel selection. The FTR lists exceptions that are similar to the
ones allowed by our corporate partners, but the corporations typically require travelers
to cite one of the exceptions when staying in a non-program hotel. The FTR does not
require that of Government travelers.




                                                            
5
 On March 13, 2008, GSA sent Congress a comprehensive legislative proposal, “the GSA Enhancement
Act of 2008”, and it is currently seeking a sponsor.
 
                                                               8

                                                                
Specifically, the FTR states:

              “When selecting a commercial lodging facility, first consideration must be
              given to the commercial lodging facilities under FedRooms…unless…(i)
              An [sic] FedRooms facility is not available at the location you
              need….(ii) Your agency has other contractual arrangements…at a lower
              cost than FedRooms properties. (iii) ….it is not practical to use FedRooms
              facilities….(iv) You are attending a conference with prearranged
              lodging…[or] (v) Your travel is OCONUS.” 6

According to an Office of Governmentwide Policy official, the Office of General Counsel
believed that “first consideration" language was as legally close to achieving FTR
compliance from Government travelers without actually mandating the strict use of the
program. This is because of Title 5, United States Code § 5911(e), which states:

              "The head of an agency may not require an employee or member of a
              uniformed service to occupy quarters [emphasis added] on a rental basis,
              unless the agency head determines that necessary service cannot be
              rendered, or that property of the Government cannot adequately be
              protected, otherwise." 7

The Office of Management and Budget’s Circular A-45, "Rental and Construction of
Government Quarters" defines rental quarters as:

              “…all furnished and unfurnished quarters supplied under specific
              Government authority to Government employees, contractors, contractor
              employees, and all other persons to whom housing is provided as an
              incidental service in support of Government programs. It includes, but is not
              limited to, Government-owned or -leased dwellings, apartments,
              bunkhouses, dormitories, trailer pads, cabins, guard stations and lookouts,
              mobile homes, house trailers, and housekeeping as well as non-
              housekeeping units.”

Although mainly geared to long-term housing, in Decision B-229317 dated
April 27,1989, the Comptroller General of the United States held that 5 U.S.C. § 5911(e)
also prevents agencies from requiring employees on official travel to stay in hotel or
motel rooms contracted for by the Government.

                                                            
6
    OCONUS refers to travel outside the contiguous United States.
 
7
  Title II, Section 207 of the proposed GSA Enhancement Act of 2008 would state that this provision does
not apply to lodging reimbursed under Chapter 57, which deals with travel, transportation, and
subsistence allowances. Therefore, the head of an agency could require employees to use a lodging
program, such as FedRooms.  
 
                                                               9

                                                                
In addition to using non-persuasive language (i.e., “first consideration”), not requiring
the traveler to cite an exception when using a non-program hotel, and not specifying
that the traveler obtain supervisory approval for the exception, the current FTR policy
does not explain the importance of FedRooms. Our corporate partners indicated that it
was important to convey to employees a reason as to why a hotel program was needed.
By providing an explanation, corporate travel directors were able to convince employees
that staying at program hotels was not only for the benefit of saving travel costs of the
company, but also for providing additional amenities to the travelers, enabling them to
stay in better and more conveniently located hotels, and enhancing their personal
safety. Even the FTR provides an explanation of the benefits of one of the
Government’s other travel programs (the car rental program), 8 so the precedent has
been set to allow that.

Because our corporate partners have travel policies that discuss the benefits of the
lodging program to the company and the traveler, as well as require employees to stay
in program hotels or cite an exception that a supervisor must approve, they advised us
that they have been able to move volume to program hotels, and, therefore, negotiate
lower hotel rates and include features such as last room availability, 9 Some company
results have been impressive:

              •       By having a large travel budget (almost $200 million annually for hotels) and
                      high usage of program hotels (83 percent), one company was able to
                      negotiate rates that were equal to or lower than per diem rates at 92 percent
                      of their program hotels, obtain significant participation (over 1,000 hotels) by a
                      large hotel chain that chooses not to participate in FedRooms at the national
                      level, and obtain last room availability at 97 percent of the hotels. The
                      company provided information on their rates in ten high-volume cities. Three
                      of these ten cities; Washington D.C., New Orleans, and Atlanta had room
                      rates that were equal to or lower than FedRooms rates.

              •       A second company with 112,000 room nights annually and 68 percent usage
                      of program hotels advised that they have compared their program rates to
                      Government per diems and found their rates are frequently lower. In addition,
                      they have been able to obtain (or secure) last room availability at 75 percent
                      of their program hotels, and they may cancel reservations up to 6:00pm on
                      the day of arrival without penalty.



                                                            
8
  FTR §301-50.8(c) says the Surface Deployment and Distribution Command has negotiated rental car
agreements that include automatic unlimited mileage, collision damage insurance, and ceiling rates.
 
9
  Last room availability means travelers are able to obtain rooms at program rates as long as the hotel has
a standard room available.  
 
                                                               10

                                                                
      •   A third company reporting $300 million in annual lodging costs, with nearly
          80,000 travelers and 70 percent program usage, did not disclose all of their
          corporate hotel rates. However, they advised that they were able to negotiate
          a hotel rate that was substantially below the Government per diem lodging
          rate ($36 less) in a major west coast city.

      •   Another company with almost $200 million in annual lodging costs, 54,000
          travelers, and comparatively high program usage (50 percent) was able to
          obtain last room availability at all of their hotels, while still obtaining
          competitive rates at hotels that travelers wanted to use.

To persuade Government travelers to book their hotel reservations through FedRooms,
a non-mandated lodging program, FAS needs to revise the wording in the FTR, using
stronger and more convincing language that would persuade Government travelers to
use the program. Additionally, FAS must require that Government travelers cite one of
four exceptions for non-compliance for travel within the contiguous United States.
Finally, program usage may increase if FAS provides an explanation in the FTR about
the importance of using the lodging program.

Recommendation

We recommend that the Acting Commissioner of the Federal Acquisition Service:

1. Work in partnership with the GSA Office of General Counsel and the GSA Office of
   Governmentwide Policy to strengthen/improve the language in the FTR for
   FedRooms, including requiring travelers to cite one of the four exceptions listed in
   the FTR if they do not use a FedRooms hotel and obtain supervisory approval for
   the non-use.

Finding 2 – Communicate Policy and Contact Non-Compliant Travelers

Since the inception of FedRooms, CWT has taken numerous actions to increase
traveler use of FedRooms. However, CWT indicated that many travelers were still
unaware of FedRooms, and those who knew of the program’s existence did not feel
compelled to use it. CWT and our benchmarking partners advised us that extensive
communication with travelers and top management support are important to make
travelers aware of the program and make them feel that they need to use it.

Some actions CWT has taken to increase Government traveler awareness of
FedRooms include travel card billing inserts, advertisements in government periodicals
such as the Federal Times, and participation at the 2008 National Travel Forum and
2008 GSA Exposition. In addition, CWT has provided official FedRooms certificates to
program hotels for display purposes in order to publicize their participation in the
program.


                                          11

                                            
CWT has conducted numerous traveler surveys, including four surveys with a significant
number of responses. 10 These surveys sought to determine what features travelers
consider important in selecting a hotel room, how they normally book a room and why,
and whether they are aware of FedRooms and if they have used it.

Only 24.4 percent of the respondents of two surveys (307 out of 1,258 travelers) were
aware of the program, and only 6.5 percent had used it. Eighty-five percent of the
respondents of another survey (518 out of 610 travelers) were aware of the program,
but only 45 percent had used it. These variances may be partially caused by the limited
ability of CWT and GSA to market directly to travelers due to privacy concerns that
cause Government agencies to decline to share employee contact information with
them. Further, top management of GSA and other agencies have not expressed to their
employees through memorandum, email notification, or revised performance measures
that usage of FedRooms is important to them. Our benchmarking partners with
successful lodging programs advised us that marketing directly to travelers and strong
top management support are important factors to increase program usage. Perhaps an
additional opportunity to market FedRooms to Government travelers is to place a notice
about the program on the GSA website that shows per diem rates.

For the majority of our benchmarking partners, travel offices send emails to their
travelers and/or administrative assistants to communicate policy regarding their lodging
program and why it is important to use the program hotels. They stressed that frequent
communication is crucial in increasing usage of the lodging program, and that the
communication should include the following components:

       •      Periodic emails to all employees. These emails communicate information about
              the program and explain why it is important for the traveler and the company
              (and more specifically, for the travelers’ specific work unit, since the profitability
              of many companies is managed at that level). The emails emphasize that the
              lodging program helps reduce operating costs, improves the ability of the
              company to track employees in times of emergency, and ensures that the
              travelers are staying in hotels that have an acceptable level of quality, safety, and
              security.

       •      Follow-up emails to employees that do not use program hotels. These emails
              not only inform employees of out of tolerance actions but also serve to let the
              employee know that their actions to make hotel reservations are closely
              monitored. The emails say the corporation might not reimburse such expenses
              in the future, and the employee’s performance rating might be affected.

                                                            
10
  Surveys included the following: (1) Department of Justice in December 2006 with 315 responses,
(2) Social Security Administration in December 2006 with 943 responses, (3) all Government travelers in
February 2007 with 610 responses, and (4) an on-going survey of Government travelers regarding the
usability of FedRooms.com with 1,024 responses since June 2005.
 
                                                               12

                                                                
       •      Periodic email reports to management. These reports list employees who
              booked trips but did not use the lodging program. This allows the managers to
              follow up with non-compliant employees to determine why and emphasize the
              importance of using the program. One of the benchmarking partners even posts
              this report to their website, so other employees may view it and apply peer
              pressure to the nonconforming travelers.

The benchmarking partners advised that most travelers will abide by travel policy and
use program hotels if they understand the policy and the importance of compliance.
Additionally, travelers will abide if they know that others, in particular their managers,
are notified when they violate policy.

Recommendation

We recommend that the Acting Commissioner of the Federal Acquisition Service:

       2. Direct GSA program officials to work with CWT to determine the most effective
          method of marketing FedRooms and following up with non-compliant travelers.

Finding 3 – Implement System Enhancements

The FedRooms booking tool and the travel authorization process have shortcomings
that need resolution to increase Government traveler satisfaction with FedRooms and
improve use of the program.

Benchmarking partners advised that having a user-friendly booking tool is a crucial
component in improving program usage, and that having a slow, difficult to use, or
incomplete booking tool can quickly alienate travelers and discourage their return to the
program. Benchmarking partners also advised that the booking tool should
automatically take the traveler to the lodging program website when arranging a trip to
encourage greater use of the program.

According to CWT surveys of Government travelers, only a small percentage of
travelers use FedRooms.com to book a room. 11 In addition, an ongoing survey that
CWT launched in June 2005 of travelers has generated 1,024 responses. The
responses to this survey indicate dissatisfaction with the FedRooms website and the
FedRooms program, as shown in the table on the next page:


                                                            
11
  According to CWT Surveys, only 4 out of 1,258 survey respondents (less than one percent) at Social
Security Administration and Department of Justice in December 2006 had used FedRooms.com to book a
room. Only 55 respondents (or 9 percent) from multiple agencies in February 2007 had used FedRooms.
Only 104 of the respondents to the ongoing usability survey had used FedRooms (10 percent of all
survey respondents or 17 percent of those who responded to that specific question).
 
                                                               13

                                                                
                 Table I - Survey Results Regarding FedRooms.com




Source: CWT’s Manager of Marketing and Communications for FedRooms

CWT’s marketing materials tout FedRooms as “The ridiculously easy way to find a
hotel.” In April 2008, CWT took steps toward better fulfilling that pledge by enhancing
the on-line booking tool they developed for FedRooms. Now, the website allows
travelers to determine room availability at program rates by simply clicking on the hotel
name. This was a significant improvement over the previous process, in which the
traveler was taken to a hotel chain’s website to determine room and rate availability.
Still, travelers have repeatedly advised CWT in usability surveys that are posted to the
FedRooms.com website that further improvements are possible. Some of the issues
that consistently appear on the survey responses are:

       •   The need for greater download speed. CWT advised us that they are making
           improvements to the speed of their website as often as they are able within
           their limited resources for doing so.

       •   The need to easily cancel or modify a reservation. The confirmation email a
           traveler receives when booking a room through FedRooms.com advises
           them, “If you need to cancel or modify your hotel reservation, please contact
           the hotel directly.” Ideally, the booking tool would be able to process changes.
           CWT advised us that this improvement is a priority project on their
           development list, but requires time and money that may not be available until
           2009.

       •   The need to search by destination and distance from destination. CWT
           advised us that this feature, which is a feature of best-in class booking sites,
           is currently on their development list, but does not yet have a target
           completion date.

       •   The need to be able to print the results of a hotel search. CWT advised us
           that this feature is currently on their development list but does not yet have a
           target completion date.




                                             14

                                               
Through our benchmarking interviews, test of the capabilities of the FedRooms website,
and comparison of the website to other similar websites, we became aware of additional
improvement opportunities:

      •   Lodging taxes. When making reservations through FedRooms.com, we
          noted that the confirmation email shows the nightly rate, but does not show
          applicable taxes. Travelers need to know taxes to prepare their
          authorizations. Private sector websites are able to present tax information,
          and therefore give the traveler the exact all-inclusive cost of their room.

      •   Room availability. The traveler is now able to determine room and rate
          availability by clicking on the name of the hotel. This is a definite
          improvement over previous processes, but best-in-class private sector
          booking tools have taken this a step further and eliminated a step for the
          traveler by only showing those hotels that have room availability at the
          program rate.

      •   Hotel description. A state advised us that it is important for the booking tool
          to describe the hotels accurately and fully so the traveler knows what to
          expect and can make an informed decision. The amount of descriptive
          information and photographs varies considerably among the program hotels,
          and private sector booking tools offer enhanced descriptions and photos. The
          FedRooms contractor relies on program hotels to provide information and
          photos.

      •   Traveler Information. Each time a traveler books a room through
          FedRooms.com, they must input their name, address, telephone number,
          charge card number and expiration date, hotel rewards program number, and
          room or bed preferences. In contrast, best-in-class booking websites allow
          the traveler to establish a profile, so they do not need to reenter that
          information with each reservation.

      •   Rate Information Reliability. When arranging a reservation on FedRooms.com
          the website identifies room rates that are purportedly available for the dates
          specified. However, this information is not necessarily accurate. When we
          tested the website’s reservation capabilities, it showed that a $189 room rate
          was available at a Washington, D.C. hotel. However, after the reservation
          was booked, the confirmation showed that reservation had been made for
          $342 per night, a difference of $153 ($141 over the per diem rate of $201).

In addition, a change to the systems used by Government travelers to prepare their pre-
trip travel authorizations could help increase usage of the FedRooms hotels. A FAS




                                           15

                                             
program official advised us that all three electronic travel system vendors 12 are required
by their master contracts to include FedRooms hotels and have had that capability for
the last three years. However, it has been a difficult work in progress to better highlight
and position FedRooms hotels in these systems.

Currently, travelers can book a FedRooms hotel room as part of the travel authorization
process by checking a box that indicates they would like to do so. The exact
procedures for each of the three E-Gov Travel Service vendors can be slightly different,
but each of the systems presents a list of hotels from which the travelers may choose.
Some of these hotels offer FedRooms rates, and they are identified by a FedRooms
designator. When the traveler clicks the “check rates” box by the name of the hotel they
would like to use, the system accesses the Global Distribution System to identify rates
and availability. It might list many different rates for the hotel, with a description of the
rates’ applicability. The plethora of rates and the arcane rate descriptions can make it
difficult for the traveler to identify the FedRooms rate.

Conversely, the traveler could be automatically taken to the E-Gov Travel Service
vendors’ hotel booking sections if the trip is for one night or more, with the traveler being
required to cite a reason code if they choose not to do so. This would be a relatively
easy way of increasing program usage and improving the completeness and validity of
program usage data, and it is currently the process for obtaining airline reservations.

Recommendation

We recommend that the Acting Commissioner of the Federal Acquisition Service:

3. As a means of increasing traveler use of FedRooms and satisfaction with their on-
   line booking experience, direct FAS to work with (a) CWT to improve
   FedRooms.com and (b) the E-Gov Travel Service vendors to automatically default
   and route to the preferred hotel content (FedRooms) within the on-line booking tool
   when an overnight stay is required.

Finding 4 – Consider Program Funding Alternatives

A hotel chain that many Government travelers elect to use chooses not to participate at
the national level because of the 2.75 percent funding fee that FedRooms hotels must
pay to CWT for program bookings. Consequently, Government travelers wanting to
book rooms with this hotel chain do not use FedRooms.

CWT retains 2 percent of the 2.75 percent fee to compensate its FedRooms program
costs. As a result of the fee, CWT received $215,189 and $599,926 for FYs 2007 and
                                                            
12
  CW Government Travel, Electronic Data Systems – U.S. Government Services, and Northrop Grumman
Mission Systems
 
                                                               16

                                                                
2008, respectively (through three quarters of FY 2008). The Director of FedRooms for
CWT’s FedRooms Director advised that costs to administer FedRooms were
approximately $650,000 per year for salaries and overhead, with additional marketing
costs. She also indicated that current program revenues now cover their current
program operating costs because they receive additional revenues from hotel
advertisements.    However, since the inception of the FedRooms contract, the
company’s program costs have exceeded program revenues by approximately $1
million.

CWT remits the remaining 0.75 percent to GSA to help fund the agency’s program costs
associated with FedRooms, since this is not an appropriated program. A FAS official
estimated that GSA spends $853,000 annually, as shown in the following table:

                                          Table II - Summary of GSA’s Program Costs 13




          Source: Acting Division Director, Center for Travel Management, Office of Travel
          and Transportation Services, Federal Acquisition Service

GSA’s program revenues did not cover its program costs. Program revenues for FY
2007 were only $80,696 (an estimated deficit of $772,304). In FY 2008, revenues were
projected at $125,000, but the estimate has now been revised upward to $200,000.
This leaves a projected $653,000 deficit for FY 2008.

CWT has been very successful in increasing hotel participation in FedRooms; as of
July 2008, there were 6,578 hotels in the program. However, a prominent hotel chain
with 3,000 hotels (2,100 domestic and 900 international) elects not to participate at the
corporate level because of the program fees, and only 140 of their franchised hotels
have independently chosen to participate.

The virtual absence of a large hotel chain that travelers like to use has reduced the
number of rooms booked through FedRooms. Government travelers continue to opt for
this hotel chain in huge numbers, reducing the volume of rooms booked through the
program. The hotel chain advised us that they receive approximately $900 million in
Government business annually, and that their share of total Government transient
lodging is steadily increasing. Our analysis of SmartPay data for this hotel chain shows
                                                            
13
  FedRooms is not a separate line item in GSA’s travel and transportation budget, so these numbers
represent the best estimates program officials could provide.
 
                                                               17

                                                                 
that Government expenditures at its properties for FY 2004, 2005, and 2006 were 16.7
percent, 17.8 percent and 18.9 percent, respectively, of total Government lodging
expenses.

In addition, other participating hotel chains advised us that their satisfaction with the
program and level of participation (i.e., number of hotels in their chain choosing to offer
FedRooms rates) is reduced by the fee. They stated that tracking program usage,
calculating the fees, and remitting them quarterly to CWT is a frustrating aspect of the
program. Further, none of the corporations or travel management companies, and only
one state we interviewed funds their programs through hotel fees.

The Director of Sales, Government and Affinity Segments, of the large hotel chain that
chooses not to participate at the corporate level advised that if the program fee were
eliminated, he would immediately make available to FedRooms all of its hotels in all of
its chains. Further, he said he would make their Information Technology expertise
available to help identify improvement opportunities for FedRooms.com.

FAS clearly needs to identify an alternative program funding source if the fee for
participating hotels were eliminated. Most of our benchmarking partners fund their
lodging programs as a line item in their budget. However, some of our benchmarking
partners used alternative funding mechanisms that perhaps could be employed for
FedRooms:

       •      Travel Card Rebates. Three corporations advised that they use rebates from
              their travel charge card vendor to help fund their lodging programs. GSA funds its
              airline City Pairs program in this manner. The Government’s SmartPay travel
              card program generated rebates of $9.3 million in FY 2007, and $2.5 million of
              this was used to fund the City Pairs program, with the balance used to fund the
              SmartPay program.

       •      Travel Agency Fees. One of our state benchmarking partners advised that their
              travel agency fee is $25 per airline ticket issued, but the travel agency remits $6
              of that fee to their in-house travel office to fund its operations. Another state
              partner indicated that they receive $3 of the travel agency’s per-ticket fee to fund
              their lodging program.

In 2005, GSA contracted with Accenture to study funding alternatives for their travel
programs. 14 The October 31, 2005 Accenture report stated that GSA’s travel programs
cost about $16.5 million in FY 2006 and program revenues fell far short of this cost.
Accenture identified three funding options:
                                                            
14
 The study’s report, GSA Travel Management Office Fee Structure Approach, was issued on
October 31, 2005.

 
                                                               18

                                                                
   •   Agency Subscription Fee. Each agency would pay a subscription fee (monthly,
       quarterly, or annually) to GSA based on their individual travel expenditures
       relative to the rest of the Government.

   •   Travel Card Transaction Fee. A percentage transaction fee, proportionate to the
       agencies’ travel expenditures relative to the total Government, is attached to
       each Travel Card transaction processed.

   •   E-Gov Travel Services Transaction Fee.       A percentage transaction fee,
       proportionate to the agency’s travel expenditures relative to the total
       Government, is attached to each transaction processed through the Electronic
       Travel System vendors. Since the Department of Defense does not use GSA’s
       Electronic Travel Systems vendors, they would pay a subscription fee for GSA
       travel services.

The Accenture report also stated that additional research regarding costs and revenues
was needed. Specifically, it recommended that GSA take the following steps:

   •   Gain a better understanding of costs and revenues needed to operate shared
       travel service;

   •   Gain customer agency and stakeholder agreement on fee structure; and

   •   Refine and implement the fee structure based on customer agency and
       stakeholder feedback.

A FAS official advised that these funding options were not discussed with other
Government agencies, and no changes were made to the funding model.

Recommendation

We recommend that the Acting Commissioner of the Federal Acquisition Service:

4. Perform cost studies of funding alternatives to the 2.75 percent fee assessed to
   program hotels as a means of gaining greater hotel participation and traveler usage
   of FedRooms in order that program revenues cover program costs.

Finding 5 – Reevaluate Contract Provisions

GSA cannot be certain that the program is operated in the Government’s best interest in
all respects, because GSA has outsourced the day-to-day operations of FedRooms to
CWT in a contract effective from October 2004 to September 2009. The contract
provides CWT substantial latitude to exercise its judgment on program operations.

According to the terms of its contract with GSA, CWT is required to:
                                           19

                                             
       •      Provide lodging rates at-or-below per diem;
       •      Negotiate and ensure hotel compliance of FedRooms rates;
       •      Provide room inventory necessary to meet 75 percent of the estimated room
              nights for Government employees at top Government travel destinations;
       •      Maintain an updated list of FedRooms properties on a designated web-site;
       •      Provide an updated inventory listing for access to Travel Management
              Centers 15 and electronic Travel Services;
       •      Provide help desk services to travelers;
       •      Provide lodging properties that are deemed Federal Emergency Management
              Agency-compliant, with a minimum 2-diamond American Automobile Association
              rating, or equivalent;
       •      Collect a 2.75 percent participation fee for every room night identified as a
              FedRooms booking (with quarterly remittance of 0.75 percent to GSA);
       •      Report to GSA on FedRooms rate occupancy activity; and
       •      Conduct marketing campaigns to promote usage and benefits of FedRooms in
              partnership with GSA’s Office of Travel and Transportation.

Some of the corporations we partnered with advised that they also have outsourced a
majority of the day-to-day lodging/travel program operations, but have retained certain
functions in-house, such as hotel selection and traveler compliance; as a means of
ensuring that the program operates in their best interest.. They suggested GSA carefully
consider what functions the contractor should perform and how much latitude GSA
should provide the contractor to make decisions about changes to the program.

If GSA chooses to continue outsourcing all of the day-to-day operations of FedRooms,
our corporate benchmarking partners suggested that GSA carefully define in the
contract exactly how the contractor is to perform the following functions to ensure they
are done in accordance with the best interests of the Government:

       •      Selection of Hotels. Our benchmarking partners advised us that the contract
              should define how the contractor will identify which hotels to solicit and ultimately
              include in the program, and the circumstances under which hotels will be
              removed from the program. The current GSA contract with CWT provides no
              guidance in this area. Unless the contract defines these issues, our
              benchmarking partners advised that GSA would risk the contractor including
              hotels with whom they have a marketing and/or ownership interest, and not
              necessarily hotels that are in the best interest of the program and its users.

       •      Fees the Contractor May Charge Participating Hotels. CWT advised that they
              continually seek ways to enhance the program’s revenue stream. For example,
              they are considering charging hotels to be listed as a “favorite” on the
                                                            
15
     Travel agencies providing official travel services for Government agencies. 

                                                               20

                                                                
       FedRooms.com website, and one hotel chain was concerned that CWT would
       start charging hotels for program usage reports. Such fees are not prohibited by
       CWT’s contract. The contract is silent on these issues. GSA should define in the
       contract whether these types of fees are acceptable under its program, as
       additional fees for hotels could impact the hotel participation rate.

   •   Booking Tool Ownership. As indicated previously, CWT advised that they own
       the rights to the FedRooms.com website that allows travelers to see information
       on program hotels and reserve rooms. We believe this factor provides CWT with
       a significant advantage over other potential offerors when GSA negotiates the
       follow-on contract and significant leverage when defining fees and terms.

Recommendation

We recommend that the Acting Commissioner of the Federal Acquisition Service:

5. Carefully define in the follow-on solicitation for the day-to-day operations of
   FedRooms provisions such as (a) how the contractor is to determine the hotels to
   solicit offers from, select and remove program hotels, and charge program hotels,
   and (b) who owns the rights to the website used to list hotel information and make
   reservations, so flexibility in vendor selection for follow-on contracts to manage
   FedRooms is preserved.

CONCLUSION

Based on annual SmartPay lodging charges of $2.5 billion for approximately 23 million
room nights incurred by Government travelers annually, the Government is in position
with FedRooms to exercise its buying power over hotels for better rates and amenities.
However, the program exerts minimal leverage over program hotels due to the lack of
usage. To increase FedRooms usage, FAS needs to adopt best practices learned from
our corporate and state partners. In particular, our corporate partners are enjoying an
advantage over the Government in receiving better rates and amenities by moving
volume to program hotels where their employees frequently stay.

MANAGEMENT CONTROLS

The examination of management controls was limited to those necessary to accomplish
the specific objectives and scope of the audit. Based on our limited review, we found no
significant management control problems.




                                          21

                                            
OTHER REPORTABLE MATTER

Inherent Risks over the Program Fee

Although not related to increasing FedRooms usage, we noted inherent risks regarding
the 2.75 percent funding fee that CWT remits to GSA. First, CWT could not ensure that
hotels were reporting FedRooms bookings accurately. Secondly, FAS did not verify the
fee that CWT remits to GSA. Accordingly, FAS had no assurance that hotels were
remitting the correct fee to CWT, or that CWT was remitting the correct fee to GSA.
This lack of verification will become a more important issue if program usage increases.

As indicated in the table below, revenues increased for FYs 2007 and 2008 (first nine
months). As program usage increases, it is increasingly important that the amounts be
verified to ensure accuracy.

                        Table III - FedRooms Program Revenues




Source: CWT’s Reporting and Remittance Coordinator for FedRooms

Hotels could underreport or over-report FedRooms stays due to cancelled reservations,
or confusion about whether a stay falls under the FedRooms rate. Further, because
program hotels self-report the amount of these bookings, the hotel can opt not to report
FedRooms nights to avoid fees.

CWT performs reasonableness tests of the amounts reported, and due to
enhancements to FedRooms.com in April 2008, CWT can now capture information on
reservations that are made through FedRooms.com. Since a large portion of CWT’s
program revenue comes from the hotel fees, they have significant incentive to ensure
their accuracy, but currently, there is no complete, dependable audit trail for these hotel
reports and remittances. Until all FedRooms reservations go through FedRooms.com
and FedRooms.com can accommodate reservation cancellations and amendments,
there is little more that CWT can do to ensure the accuracy of hotel reports and
remittances.

FAS relied on CWT to remit the correct portion of the fee that is due to FAS (0.75
percent). FAS did not review CWT’s support documents to ensure the accuracy of the
amount remitted because no reliable audit trail existed. However, FAS could review the
documentation CWT sent to GSA to determine whether the amount was reasonable,
and ensure that CWT computed the 0.75 percent remittance amount correctly.

Because FedRooms’ funding mechanism is modeled after the schedules program,
whereby vendors self-report program sales, there are no recommendations addressing

                                              22

                                                
internal control weaknesses noted for the FedRooms fee. Instead, these internal
control weaknesses were considered inherent risks resulting from the self-reporting of
sales. However, these risks could be minimized by applying similar oversight that FAS
imposes for the schedules program. 
 
Management Comments

The Acting Commissioner generally concurred with the report’s recommendations.
However, for recommendation 2, the Acting Commissioner indicated that follow-up with
non-compliant travelers is more appropriate at the customer agency level than issuing
email notifications to employees who do not use FedRooms, a non-mandated travel
program.

The Acting Commissioner also provided comments regarding the section Other
Reportable Matter. He noted that while there are weaknesses regarding the Industrial
Funding Fee for the FedRooms program, these weaknesses are no greater than for
schedules vendors.

The Acting Commissioner’s response is included in its entirety in Appendix A to this
report.

Office of Inspector General Response

Recommendation 2 did not specifically direct FAS to use email notification for
noncompliant travelers, but indicated that FAS work with CWT to determine the most
effective method of following up with noncompliant travelers. Our benchmarking
partners indicated that email notification was an effective method of informing
employees who do not use program hotels.               Therefore, we reaffirm our
recommendation.

As far as the Acting Commissioner’s comments regarding weaknesses affecting the
Industrial Funding fee, we do not disagree with his statement.




                                         23

                                            
APPENDICES




      
A-1

  
A-2

  
                       IMPROVING THE FEDROOMS PROGRAM
                            BASED ON BENCHMARKING
                          FEDERAL ACQUISITION SERVICE
                        REPORT NUMBER A080074/Q/A/P08009

                                 REPORT DISTRIBUTION

                                                                            Copies

Acting Commissioner, Federal Acquisition Service (Q)                          3

Assistant Commissioner for Travel, Motor Vehicles, and Card Services (QM)     1

Director, Travel and Transportation Services (QMC)                            1

Acting Assistant Inspector General for Auditing (JA)                          2

Acting Director, Audit Planning, Policy, and Operations Staff (JAO)           1

Assistant Inspector General for Investigations (JI)                           1

Director, Internal Control and Audit Division (BEI)                           1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)              1




                                           B-1

                                               
